TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                         Progress Has Been Made to
                    Reengineer the Examination Program,
                   but Additional Improvements Are Needed
                         to Reduce Taxpayer Burden



                                        February 18, 2011

                              Reference Number: 2011-30-016




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

  Redaction Legend:
  1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


PROGRESS HAS BEEN MADE TO                            implementing the process, the Program reflected
REENGINEER THE EXAMINATION                           significant improvements in several attributes
PROGRAM, BUT ADDITIONAL                              used to measure performance. Despite the
IMPROVEMENTS ARE NEEDED TO                           progress, results from our statistical sample of
                                                     cases where taxpayers agreed to the additional
REDUCE TAXPAYER BURDEN
                                                     tax assessments showed 28 of 62 cases
                                                     contained errors. The majority of these errors
Highlights                                           related to employees untimely closing cases.
                                                     Our analyses of another statistical and two
Final Report issued on February 18, 2011             judgmental samples of cases where the
                                                     taxpayer did not agree with the additional
Highlights of Reference Number: 2011-30-016          assessment showed Program employees did not
to the Internal Revenue Service Commissioners        always consider the taxpayer’s correspondence
for the Small Business/Self-Employed Division        before closing the case.
and the Wage and Investment Division.
                                                     WHAT TIGTA RECOMMENDED
IMPACT ON TAXPAYERS
                                                     TIGTA recommended that the IRS ensure all
The Correspondence and Discretionary                 Program employees 1) follow mail processing
Examination Program (hereafter referred to as        guidelines until the mail model process is fully
the Program) conducts examinations exclusively       implemented in all sites and 2) follow guidelines
by mail to reduce Internal Revenue Service           for handling, responding to, and considering
(IRS) operational costs and minimize the burden      taxpayer correspondence.
on taxpayers. However, taxpayers have
                                                     Although the IRS agreed with our
expressed concerns with the length of the
                                                     recommendations, it did not agree with our
examination process, the lack of consideration
                                                     outcome measure. Specifically, the IRS stated
given to their information sent to the IRS, and
                                                     that many of the errors do not impact taxpayer
treatment by IRS employees. While the IRS is
                                                     rights and entitlements because the absence of
reengineering the examination process,
                                                     a date stamp on a taxpayer’s correspondence
taxpayer burden continues to exist.
                                                     would not constitute burden to the taxpayer. In
WHY TIGTA DID THE AUDIT                              addition, the IRS expressed concerns with
                                                     TIGTA’s use of the word “error” because it could
This audit was initiated at the IRS Oversight        lead readers to believe that an incorrect
Board’s request for TIGTA to assess whether          conclusion was reached during the examination.
recent IRS efforts to identify weaknesses and
take actions in its Program actually improved        Our audit findings and recommendations
results. Our overall objective was to determine      address results that showed IRS employees did
whether the IRS’s reengineered Program               not adhere to established procedures and/or
resulted in a more responsive and less               guidelines when processing correspondence
burdensome process for taxpayers.                    taxpayers submit for examinations of their tax
                                                     returns. For example, when date stamps which
WHAT TIGTA FOUND                                     are applied to assist employees control of
                                                     documents received from taxpayers are missing,
Steps have been taken to reengineer the
                                                     the IRS cannot ensure a timely response to the
Program and improve employee compliance
                                                     taxpayer. When employees do not adhere to
with Program guidelines, which could ultimately
                                                     IRS guidelines and procedures, it is simply an
lessen taxpayer burden and increase taxpayer
                                                     error. TIGTA continues to believe that when
rights and entitlements. TIGTA selected and
                                                     these errors occur, taxpayers are at risk of not
reviewed two samples to evaluate employee
                                                     receiving their rights, entitlements, and
performance before and after the Program
                                                     protection of due process when they question
implemented a new mail model process at one
                                                     the accuracy of tax liabilities resulting from
processing site. Our results showed that after
                                                     Program examinations.
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                          February 18, 2011



 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION
                COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Made to Reengineer the
                             Examination Program, but Additional Improvements Are Needed to
                             Reduce Taxpayer Burden (Audit # 201030034)

 This report presents the results of our review to determine whether the Internal Revenue
 Service’s (IRS) reengineered Correspondence and Discretionary Examination Program (hereafter
 referred to as the Program) process resulted in a more responsive and less burdensome process
 for taxpayers. The Program’s process includes mail processing, information document requests,
 and telephone access and service. The IRS Oversight Board (hereafter referred to as the Board)
 and tax practitioners expressed concerns with the execution of Program examinations.
 Specifically, the excessive time it takes to reach final resolution of a taxpayer’s case, the inability
 of the taxpayer to contact the IRS to obtain definitive information on the questionable tax issue,
 and the fact that taxpayer inquiry calls are not being returned. In February 2009, the IRS
 responded to the Board that it had taken a series of actions to identify and address key
 weaknesses in its Program processes that contributed to taxpayer dissatisfaction in the past. This
 review was requested by the Board and was part of our Fiscal Year 2010 Annual Audit Plan and
 addresses the major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VIII. Copies of
 this report are also being sent to the IRS managers affected by the report recommendations.
 Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg, Assistant
 Inspector General for Audit (Compliance and Enforcement Operations), at (202) 622-8510.
                                    Progress Has Been Made to Reengineer
                             the Examination Program, but Additional Improvements
                                    Are Needed to Reduce Taxpayer Burden




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          Examination Program Changes Were Successfully Piloted,
          but Challenges Still Exist .............................................................................. Page 4
                    Recommendations 1 and 2: .............................................. Page 6

          Additional Steps Are Needed to Ensure Employees Follow
          Procedures to Improve Customer Satisfaction .............................................. Page 6
                    Recommendation 3:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 13
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – Taxpayer Feedback From the Fiscal Year 2010
          Customer Satisfaction Survey on Their Experience With the
          Examination Process ..................................................................................... Page 19
          Appendix VI – Letter 3219 Notice of Deficiency ........................................ Page 20
          Appendix VII – Glossary of Terms ...................... …………………………Page 22
          Appendix VIII – Management’s Response to the Draft Report ................... Page 24
               Progress Has Been Made to Reengineer
        the Examination Program, but Additional Improvements
               Are Needed to Reduce Taxpayer Burden




                    Abbreviations

IRS           Internal Revenue Service
SB/SE         Small Business/Self-Employed
W&I           Wage and Investment
                                Progress Has Been Made to Reengineer
                         the Examination Program, but Additional Improvements
                                Are Needed to Reduce Taxpayer Burden




                                            Background

 The Correspondence and Discretionary Examination Program (hereafter referred to as the
 Program)1 plays a vital role in the Internal Revenue Service’s (IRS) mission of promoting
 voluntary compliance with the tax law. Program examinations are conducted at 10 sites2 in the
 Small Business/Self-Employed (SB/SE) Division as part of the Campus Compliance Services
 function and in the Wage and Investment (W&I) Division under the Reporting Compliance
 function. Figure 1 reflects the volume of examinations and additional tax revenue generated
 from October 1, 2007, through March 10, 2010, for both Divisions.
             Figure 1: Volume of Examinations and Additional Tax Revenue

         Fiscal Year                     Number of Examinations                     Tax Revenue (in billions)
         2008                                   1,070,548                             $6.16
         2009                                   1,094,996                             $7.58
         2010                                   1,075,963                             $7.73
         Totals                                 3,241,507                           $21.47
                                                                 3
Source: Our analysis of the Audit Information Management System for October 1, 2007, through March 10, 2010.

 By conducting examinations, Program examiners are primarily responsible for determining the
 correct tax liabilities for taxpayers. Examinations of individual taxpayers can range from
 reviewing their tax returns and resolving questionable items by corresponding with them through
 the mail to a detailed face-to-face examination of a taxpayer’s financial records at his or her
 place of business. In contrast to the more labor-intensive, face-to-face examination, the
 correspondence examination process is less intrusive, more automated, and conducted by
 examiners who are trained to address and focus on less complex tax issues. Importantly,
 correspondence examinations also enable the IRS to reach more taxpayers at a lower cost,
 minimize taxpayer burden, and release resources for face-to-face examinations focused on more
 complex noncompliance tax issues.


 1
   In the W&I Division, the Program is referred to as Discretionary Examination, and in the SB/SE Division, the
 Program is referred to as Correspondence Examination.
 2
   The 10 sites are located at the Andover Campus in Andover, Massachusetts; Atlanta Campus in Atlanta, Georgia;
 Austin Campus in Austin, Texas; Brookhaven Campus in Holtsville, New York; Cincinnati Campus in Cincinnati,
 Ohio; Fresno Campus in Fresno, California; Kansas Campus in Kansas City, Missouri; Memphis Campus in
 Memphis, Tennessee; Ogden Campus in Ogden, Utah; and Philadelphia Campus in Philadelphia, Pennsylvania.
 3
   See Appendix VII for a glossary of terms.
                                                                                                          Page 1
                                 Progress Has Been Made to Reengineer
                          the Examination Program, but Additional Improvements
                                 Are Needed to Reduce Taxpayer Burden



Once a tax return is selected for examination, taxpayers are issued a letter requesting additional
information to support the questionable tax items. If the taxpayer does not respond, the IRS
issues a second letter informing the taxpayer of the proposed tax assessment. If the taxpayer
does not respond to the second letter or if the response is insufficient to address the items in
question, the IRS will issue a Notice of Deficiency (Letter 3219).4 This Letter gives the taxpayer
90 days5 to pay the tax assessment or file a petition with the Tax Court. If resolution has not
occurred by the end of the 90-day period, the Program examination is closed and the assessed tax
is posted to the taxpayer’s account.
In the 2008 IRS Oversight Board (hereafter referred to        In 2008, practitioners stated the
as the Board) Annual Report to Congress, practitioners       IRS had increased the number of
expressed concern about the increased number of                Program audits and expressed
Program examinations and the extraordinary amount of          concern  about the extraordinary
                                                                 amount of time required to
time required to reach a final resolution. In addition,           reach a final resolution.
practitioners shared that the IRS did not designate, in the
various letters, an employee who could be contacted to
further define the issues or answer taxpayer questions. The current process requires taxpayers to
call the number listed on letters and leave a voice mail message. Practitioners stated IRS
employees are not responding to these calls and suggested a telephone help line for taxpayers to
call when they have questions. Finally, some practitioners stated their clients get repeat notices
over several years for the same issue even after prior examinations were closed without a tax
assessment (i.e., referred to by the Program as a no-change case).
In February 2009, the IRS briefed the Board on research it conducted which confirmed that many
taxpayers and practitioners find the process too lengthy and the IRS correspondence difficult to
understand. The IRS indicated that it had identified key weaknesses and had developed solutions
that would focus on three areas for improvement – mail processing, requests for taxpayer
information documents, and telephone access and service. The Board requested the Treasury
Inspector General for Tax Administration assess whether the recent efforts the IRS made to
reengineer its Program resulted in a more responsive and less burdensome process for taxpayers.
We identified two internal IRS studies of the correspondence examination process that responded
to the Board’s concerns. The purposes of the studies were to evaluate if Program employees
were adhering to Program guidelines and make recommendations to reduce the burden on
taxpayers. The two studies and reported results were as follows:
    •    In January 2009, the SB/SE Division Taxpayer Improvement Initiative study
         recommended solutions to improve Program employees’ communication with taxpayers

4
  If the taxpayer’s response is not sufficient, the taxpayer is issued a Request for Consideration of Additional
Findings letter (Letter 692) explaining that the response did not substantially verify the issues. This is done prior to
the issuance of the Notice of Deficiency. See Appendix VI for a Notice of Deficiency (Letter 3219).
5
  Unless otherwise noted, all references to days throughout the report are calendar days.
                                                                                                                Page 2
                           Progress Has Been Made to Reengineer
                    the Examination Program, but Additional Improvements
                           Are Needed to Reduce Taxpayer Burden



       and improve taxpayers’ ability to receive assistance when they call the IRS. The SB/SE
       Division developed job aides to help Program employees communicate to taxpayers what
       documentation is required to substantiate questionable items on the tax return. As of
       July 2010, the SB/SE Division completed implementation of the toll-free call routing
       system currently being used by the W&I Division. Taxpayers will be able to speak
       directly with assistors when they have questions about their Program examination.
   •   In February 2010, the W&I Division Lean Six Sigma study began piloting a centralized
       model for processing incoming mail at the Austin Compliance Site. This model will
       centralize all mail processing and increase the flexibility in planning, staffing, and
       teamwork. The W&I Division plans to implement the model in all its sites by June 2011.
       The SB/SE Division plans to pilot the process in December 2010 at one of its five sites
       and implement the process in the remaining sites by April 2011.
This review was performed at the W&I Division Headquarters and sites at the Atlanta Campus in
Atlanta, Georgia; the Austin Campus in Austin, Texas; the Kansas City Campus in Kansas City,
Missouri; the Memphis Campus in Memphis, Tennessee; and, the SB/SE Division Headquarters
in New Carrolton, Maryland, during the period January through August 2010. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective, scope
and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                         Page 3
                                Progress Has Been Made to Reengineer
                         the Examination Program, but Additional Improvements
                                Are Needed to Reduce Taxpayer Burden




                                       Results of Review

Examination Program Changes Were Successfully Piloted, but
Challenges Still Exist
For our review, we selected a statistical sample of 62 W&I Division and SB/SE Division closed
agreed cases from a population of 251,215 for the period April through December 2009.6
Results showed 28 (48 percent)7 contained errors where Program employees did not follow
guidelines while completing the Program examination. The majority of these errors related to
employees untimely closing cases. We also selected and reviewed a judgmental sample of
35 closed agreed cases from the Austin Compliance Site for the month of May 2010. The Austin
Compliance Site was selected because the IRS chose it to pilot the changes to the mail process
recommended from the Lean Six Sigma study. We compared the results from this sample to the
results from our statistical sample for several Program attributes to determine if the implemented
changes improved Program results.
                                    Our review showed measurable differences between the two
       The IRS implemented a        samples, indicating the new mail model process has
      new mail model process
                                    improved compliance with Program guidelines and could
         that has improved
      Program compliance and        ultimately lessen taxpayer burden. For example, prior to
       could ultimately reduce      implementing changes at the Austin Compliance Site, it took
          taxpayer burden.          the Program an average of 27 days to close an agreed case.
                                    Based upon the sample results, after implementing the
changes, 100 percent of the cases were closed within an average of 7 days.8 Figure 2 reflects a
comparison of the attributes used by the Program before and after the changes were implemented
at the Austin Compliance Site.




6
  This is the period after the IRS made a presentation to the Board in February 2009.
7
  The error rates from the statistical samples throughout this report, including results in Figures 2 and 3, are
weighted error rates based on the errors and population of closed cases for each Division. As a result, the
percentages cannot be determined based on the numbers presented. See Appendix IV for the methodology used to
determine the percentages.
8
  Figure 2 shows 6 of 35 cases were not closed timely; however, it took an average of 7 days to close all 35 cases.
Based on these results, the Austin Compliance Site met the W&I Division’s 7-day expectation.
                                                                                                             Page 4
                                  Progress Has Been Made to Reengineer
                           the Examination Program, but Additional Improvements
                                  Are Needed to Reduce Taxpayer Burden



                        Figure 2: Comparison of Pilot and Program Results
                             for Compliance With Program Guidelines

                                                             Results From the
                                                                                           Results From Pilot
                                                             Program Before
                                                                                           Site After Changes
                 Program Attributes                           Changes Were
                                                                                           Were Implemented
                                                              Implemented9
                                                                                                      0%
    Cases were not stamped with Program received date.            5% (3 of 62)
                                                                                             All stamped correctly
    Cases were not routed to Program employees to work            5% (3 of 59)                        0%
    within 1 to 3 days.
                                                           Ranged from 4 to 14 days            All routed timely
    Cases were not closed within the required number of
                                                                 37% (21 of 62)                 17% (6 of 35)
    days from the Program received date.10
    Case actions were not documented in automated
                                                                  ***1***                        ***1***
    history sheets.

Source: Our analyses of closed agreed cases from both Divisions.

Program management has not established guidelines for the number of days it should take
examiners to close agreed cases. However, when asked, the SB/SE Division considered 21 days
as reasonable to close agreed cases and the W&I Division had an expectation of 7 days.
Government Accountability Office standards provide that management conduct reviews to
compare actual performance to planned results and analyze significant differences. Based on our
analysis and for Program consistency, we believe the opportunity exists for Program
management to strengthen its controls by revisiting what is reasonable and their expectation for
the number of days it takes to close agreed cases.
Overall, we believe the changes the Program has taken to improve its processes are a positive
step in the right direction. However, until the Program can implement the planned changes at all
sites, taxpayers will continue to experience increased burden and inconsistencies with the
process. Based on our results, we project 108,09211 closed agreed cases from April through
December 2009 contained an error that decreased the Program’s performance measures and
increased the risk that taxpayers were not afforded the rights and entitlements to due process as


9
  For those attributes that do not total 62, we could not evaluate them because information was not available for us to
determine if an error occurred.
10
   To calculate the error rate for this Program attribute, we determined *************1*********************
***1*** and 19 W&I Division cases were closed beyond 7 days.
11
   We used a 90 percent confidence interval and a precision of ±6.25 percent to calculate a sample size to select
cases we reviewed to identify error rates where employees did not always follow procedures when closing cases.
We used the results of our analysis to project across the population of closed agreed cases.
                                                                                                              Page 5
                               Progress Has Been Made to Reengineer
                        the Examination Program, but Additional Improvements
                               Are Needed to Reduce Taxpayer Burden



protected by employees’ adherence to Program guidelines. See Appendix IV for our projection
details.

Recommendations
The Commissioners, SB/SE and W&I Divisions, should:
Recommendation 1: Ensure that all Program employees follow current mail processing
guidelines until the pilot mail model is fully implemented in all 10 sites.
        Management’s Response: IRS management agreed with this recommendation.
        They will continue to ensure adherence to their procedures in all aspects of their Program
        through their annual operational and program reviews.
Recommendation 2: Strengthen controls over processing agreed cases and, for consistency
between the two Business Divisions, establish a specific time constraint for Program employees
to close agreed cases.
        Management’s Response: IRS management agreed with this recommendation.
        They will establish a standard timeframe and incorporate this into their Internal Revenue
        Manual guidance. They also agreed to implement a processing change to make it easier
        to identify agreed cases that are delayed more than 7 days.

Additional Steps Are Needed to Ensure Employees Follow Procedures
to Improve Customer Satisfaction
Our audit results showed the Program process continues to be lengthy and, prior to closing the
case, Program employees did not always consider the information taxpayers provided in
response to IRS letters. We completed analyses of three additional samples of default cases and
cases that were closed but were reopened because taxpayers provided new information for audit
reconsideration. We selected these samples to determine whether employees adhered to Program
guidelines. We did not evaluate whether Program changes, made as a result of the IRS studies,
improved the examination process.12

Process improvements are needed to close cases when the taxpayer responds
but disagrees with the proposed tax assessment
From a population of 137,294 cases, we selected and reviewed a statistical sample of 60 closed
default cases for the period April through December 2009 for the W&I and SB/SE Divisions to


12
  We could not compare these results to a judgmental sample from the Austin Compliance Site because there were
no default cases available for us to review when we selected our sample. Also, the Lean Six Sigma study did not
evaluate the Program process for completing audit reconsideration cases.
                                                                                                         Page 6
                                 Progress Has Been Made to Reengineer
                          the Examination Program, but Additional Improvements
                                 Are Needed to Reduce Taxpayer Burden



determine if employees followed Program guidelines. Our results showed 47 (83 percent)
contained errors that indicate Program employees did not always follow procedures when closing
cases. For example, after responding to correspondence received from the Program, taxpayers
experienced delays ranging from 32 to 13713 days waiting for Program employees to take action
with the correspondence that was sent. Guidelines require Program employees to evaluate the
taxpayers’ correspondence and take the next action within 30 days from the IRS received date.
Figure 3 reflects the results for the Program attributes used to measure performance in both
Divisions.
                         Figure 3: Analyses of 60 Closed Default Cases14

                                                                                 Error Rates for
                      Program Attributes
                                                                                  Closed Cases

     Cases were not stamped with Program received date.                             6% (4 of 60)

     When warranted, taxpayers were not contacted by Program
                                                                                    18% (5 of 34)
     employees when additional information was needed.

     Program employees did not evaluate the taxpayers’                             72% (40 of 60)
     correspondence within 30 days from the IRS received date.              Ranged from 32 to 137 days

     Cases were not routed to Program employees within                             45% (14 of 41)
     5 business days.                                                        Ranged from 7 to 130 days

     The computer system was not updated within 5 business days                    63% (27 of 44)
     of the Program received date.                                            Ranged from 8 to 71 days

 Source: Our analyses of the sampled closed default cases from April through December 2009.

The Program’s Fiscal Year 2009 operational reviews showed similar results to the types of errors
identified in our sample. In response to the operational reviews, Program management stated
that an adequate process to update its computer system with correspondence received from
taxpayers was not in place to meet Program requirements. We shared our sample results with
Program management and were advised that the lack of a process to handle the high volume of
correspondence was a critical challenge during Fiscal Year 2009. Many of the delays IRS
employees experienced working the cases could be attributed to correspondence and claims
associated with the First-Time Homebuyer Credit. For example, the volume of claims and
original tax returns associated with the Credit steadily increased from 1,466 in April 2009 to

13
   Only 2 of the 41 cases experienced delays greater than 100 days. The delays for the remaining cases were all less
than 94 days.
14
   For those attributes that do not total 60, we were unable to determine if an error occurred.
                                                                                                            Page 7
                                Progress Has Been Made to Reengineer
                         the Examination Program, but Additional Improvements
                                Are Needed to Reduce Taxpayer Burden



89,338 by September 2009. The unexpected increase caused Program management to shuffle
resources in an effort to keep up with the demand. Based on our results, we project
101,78715 closed default cases contained an error that decreased the Program’s performance
measures and increased the risk that taxpayers were not afforded the rights and entitlements to
due process as protected by employees’ adherence to Program guidelines. See Appendix IV for
our projection details.

Process improvements are needed to ensure correspondence received from the
taxpayer is considered before the case is closed
We selected a judgmental sample of 2416 default cases after receiving concerns that Program
employees were not following procedures requiring them to consider taxpayer correspondence
prior to closing the cases. Our results showed for 17 of the cases, Program employees did not
consider the taxpayers’ correspondence prior to closing the case. In addition, for 10 (59 percent)
of the 17 cases, the taxpayers’ correspondence was not input to the Integrated Data Retrieval
System and/or the Correspondence Examination Automation Support System within the required
time period to alert Program employees that correspondence had been received. This situation
was attributed to Program employees storing taxpayer correspondence on shelves instead of
entering the information in the computer systems.
When correspondence is not timely entered into the systems, IRS employees who work the
Toll-Free telephone lines cannot advise taxpayers when they call that their correspondence has
been received and is being considered. In addition, Program employees are unable to consider
the taxpayer’s correspondence because the computer systems have no record of the
correspondence being received. Our analyses showed that taxpayer correspondence was stored
on the shelves from 13 to 82217 days prior to closing. Shelving the correspondence resulted in a
backlog of work that employees could not process until Program resources were allocated to
enter the correspondence in the computer systems.
Guidelines state the Program employees should, before deciding whether to assess additional
taxes, consider all correspondence received from the taxpayer within 7 days after the case is
closed. Further, if correspondence is received and a decision to close the case cannot be made
within 14 days from the date the taxpayer responds, the correspondence should be input into both
computer systems. Finally, if correspondence is received after the case is closed, the



15
   We used a 90 percent confidence interval and a precision of ± 8.5 percent to calculate a sample size to select cases
we reviewed to identify error rates where employees did not always follow procedures when closing cases. We used
the results of our analysis to project across the population of closed default cases.
16
   We randomly selected 27 cases; however, we removed 3 cases from our sample because *********1*********
*************************1**********************************************.
17
   ***************************************************1**********************************. The
remaining cases were less than 302 days.
                                                                                                              Page 8
                               Progress Has Been Made to Reengineer
                        the Examination Program, but Additional Improvements
                               Are Needed to Reduce Taxpayer Burden



correspondence should be reviewed as an audit reconsideration. Figure 4 shows the results for
the Program attributes used to measure Program performance for default cases closed.
                      Figure 4: Analyses of Correspondence Received
                             Prior to Closing the Default Cases

                     Program Attributes                                       Error Rate
      Decision to close the case was not made within the
                                                                             96% (23 of 24)
      required 14 days of receipt of correspondence.
      Correspondence was not controlled within the                           54% (13 of 24)
      required 14 days after correspondence was
      received.                                                       Ranged from 20 to 707 days

                                                                             92% (22 of 24)
      Cases were not worked within 30 days of receipt.
                                                                      Ranged from 68 to 822 days
      Cases were not stamped with a Program received
                                                                               ******1******
      date.
      Correspondence received either prior to closing or
      within 7 days after closing but was not                                71% (17 of 24)
      considered.18
                                                                             29% (7 of 24)
      Correspondence received more than 7 days after
      the case was closed but was not worked as an audit              Ranged from 9 to 357 days
      reconsideration case as required.

     Source: Analyses of 24 judgmentally selected default cases from one Program site.

Since Program employees did not consider the correspondence prior to closing the case,
17 taxpayers were assessed $38,591 in additional taxes and experienced increased taxpayer
burden. Our analyses of the cases showed the taxpayers questioned the assessments and
resubmitted information that was not considered during the original examination. We did not
evaluate if the information provided by the taxpayer would have substantiated the items in
question on the tax returns. However, after reviewing the information provided by the taxpayer,
Program employees agreed to reduce the total assessments by 34 percent, or $13,287.




18
  The remaining seven cases were not considered because the correspondence was received beyond the 7-day
period.
                                                                                                      Page 9
                             Progress Has Been Made to Reengineer
                      the Examination Program, but Additional Improvements
                             Are Needed to Reduce Taxpayer Burden



Program employees considered taxpayer correspondence after the case was closed.
We selected and reviewed a judgmental sample of 1419 cases after receiving concerns that
taxpayer correspondence was not being considered before the case was closed. Our results
showed that for 11 (79 percent) of the cases, Program employees met expectations when
completing audit reconsideration cases. Program management does not have specific time
constraints for Program employees to close audit reconsideration cases. However, we were
advised that Program employees are expected to review taxpayer correspondence and complete
audit reconsideration cases within 120 days from the date the correspondence is received. We
determined that the average number of days to work and close all 11 cases was 104 days.
*******************1*************** while the remainder ranged from 13 to 123 days to
close. Further, after considering the taxpayers’ correspondence, Program employees reduced the
additional tax assessments by 63 percent, or from $36,075 to $22,720.
For the remaining 3 cases, Program employees classified and worked the cases as audit
reconsiderations even though the taxpayers’ correspondence was actually received an average of
26 days prior to the case closing. Because the taxpayers’ correspondence was not considered
before the cases were closed, the Program assessed the taxpayers $11,282 in additional taxes.
After considering the correspondence during the audit reconsideration, Program employees
abated the entire $11,282 in additional tax assessments.
In most instances, we believe Program management has established guidance for its employees
when responding to and controlling taxpayer correspondence. However, when Program
employees do not follow procedures or consider taxpayers’ correspondence, the burden on
taxpayers increases. For example, taxpayers in our sample would have eventually received
notices demanding payment for taxes that were not owed. Taxpayers could have incurred
additional expenses if they had to hire a certified public accountant or attorney to represent them
before the IRS. In addition, the IRS inefficiently used its resources because Program employees
performed additional work abating taxes that should not have been assessed if the taxpayers’
correspondence had been considered when it was initially received. Government Accountability
Office standards provide that transactions are to be accurately and timely recorded to maintain
their relevance and value to management in controlling operations and making decisions. When
this efficiency occurs, management is able to achieve effective results both within its Program
and with its customers.

Program improvements could increase taxpayers’ customer satisfaction
As part of the IRS agency-wide initiative to monitor and improve taxpayer satisfaction, the IRS
provides a Customer Satisfaction Survey to taxpayers whose tax returns were examined by
Program employees. Our review of the survey results from the SB/SE and W&I Divisions for

19
  We randomly selected 15 default cases; however, *********************1****************************
*******************1***********************.
                                                                                             Page 10
                                  Progress Has Been Made to Reengineer
                           the Examination Program, but Additional Improvements
                                  Are Needed to Reduce Taxpayer Burden



the period October through December 200920 showed, on average, a 44 percent dissatisfaction
rate when taxpayers were questioned about the length of the examination process, time spent on
the examination, consideration given to information sent to the IRS, and fairness of treatment by
Program employees. These issues were rated by taxpayers as very important and consistent with
concerns expressed by the Board.
The IRS’ contractor that analyzed the survey results suggested that “making improvements to
areas in which customers are relatively dissatisfied and/or where the item is very important to
them will improve overall customer satisfaction.” See Appendix V for taxpayers’ responses to
the Customer Satisfaction Survey on their examination experience.

Recommendation
Recommendation 3: The Commissioners, SB/SE and W&I Divisions, should ensure
employees follow all Program guidelines for handling, responding to, and considering taxpayer
correspondence when working Program cases.
           Management’s Response: IRS management agreed with this recommendation.
           They will continue to ensure adherence to their procedures in all aspects of their Program
           through their annual operational and program reviews.
           Office of Audit Comment: The IRS agreed with our recommendations, but did not
           agree with our reported outcome measure. Specifically, the IRS stated many of the errors
           do not impact taxpayer rights and entitlements because the absence of a date stamp on a
           taxpayer’s correspondence would not constitute burden to the taxpayer. In addition, the
           IRS expressed concerns with our use of the word “error” when referring to delayed
           processing because it could lead readers to believe that an incorrect conclusion was
           reached during the examination.
           Our audit findings and recommendations address results that showed IRS employees did
           not adhere to established procedures and/or guidelines when processing correspondence
           taxpayers submit for examinations of their tax returns. For example, when date stamps,
           which are applied to assist employees’ control of documents received from taxpayers, are
           missing, the IRS cannot ensure a timely response to the taxpayer. We used the IRS’s
           criteria, which included some inconsistency between the W&I and SB/SE Divisions, for
           measuring timeliness to identify errors. When employees do not adhere to IRS guidelines
           and procedures, it is simply an error. We continue to believe that when these errors
           occur, taxpayers are at risk of not receiving their rights, entitlements, and protection of
           due process when they question the accuracy of tax liabilities resulting from Program
           examinations. For example, we reported 17 instances where taxpayers were assessed
           additional taxes and interest totaling $38,591 because the IRS did not timely consider the

20
     We reviewed the latest Customer Satisfaction Survey results available for both Divisions.
                                                                                                 Page 11
                    Progress Has Been Made to Reengineer
             the Examination Program, but Additional Improvements
                    Are Needed to Reduce Taxpayer Burden



information submitted by taxpayers. After taxpayers questioned the assessments and
resubmitted information, Program management agreed to reduce the assessments by
$13,287.
The overall objective of our review was to determine whether the IRS’s reengineered
Program process resulted in a more responsive and less burdensome process for
taxpayers. We clearly state in the report that it did not evaluate whether the information
provided by the taxpayer would have substantiated the items in question. The IRS’s
guidelines and procedures are designed to ensure fair and equitable treatment for all
taxpayers and to control and monitor employee work. We reported the IRS’s new mail
process has improved Program results and could, once implemented at all sites, lessen
taxpayer burden. These results were based on valid statistical samples which were shared
with the IRS throughout this review. It is unclear to us why the IRS disagrees with our
outcome measure when it agreed to take corrective actions for all of our
recommendations.




                                                                                  Page 12
                                  Progress Has Been Made to Reengineer
                           the Examination Program, but Additional Improvements
                                  Are Needed to Reduce Taxpayer Burden



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS’s reengineered Program process
(i.e., mail processing, information document requests, and telephone access and service) resulted
in a more responsive and less burdensome process for taxpayers. To accomplish this objective,
we:
I.         Determined what changes, if any, had been implemented to improve procedures in place
           for processing incoming mail. This included following up to determine if any Taxpayer
           Improvement Initiative study team and Lean Six Sigma1 Mail study recommendations
           were implemented and whether the Mail study met its April 2010 completion date. In
           addition, we reviewed quarterly Customer Satisfaction Survey results for the satisfaction
           levels of taxpayers with the Program.
II.        Determined whether the Program effectively and efficiently followed procedures to
           process taxpayer correspondence.
           A. Selected a statistical sample of 62 agreed and 60 default cases from Audit
              Information Management System to determine if Program employees adhered to
              existing guidelines when completing Program examinations. In addition, we assessed
              the reliability of the data in the Examination databases used during the audit by
              comparing selected fields from our sampled cases to the Integrated Data Retrieval
              System. We did not identify any reportable differences. We used attribute sampling
              and selected cases from the SB/SE and W&I Divisions.
               1. For the agreed cases sample, we used a 90 percent error rate, a 90 percent
                  confidence interval, and a ±6.25 percent precision level. We used the weighted
                  average method to determine the number of cases selected from each Division.
                                                                      Weighted       Sample
                                                          Cases       Average         Size
                    SB/SE population of cases            94,931         .38            23
                    W&I population of cases             156,284         .62            39
                                                        251,215        100%            62




1
    See Appendix VII for a glossary of terms.
                                                                                              Page 13
                               Progress Has Been Made to Reengineer
                        the Examination Program, but Additional Improvements
                               Are Needed to Reduce Taxpayer Burden



             2. For the default cases sample, we used an 80 percent error rate, a 90 percent
             confidence interval, and a ±8.5 percent precision level. We used the weighted
             average method to determine the number of cases selected from each Division.
                                                                     Weighted        Sample
                                                         Cases        Average         Size
                SB/SE population of cases               51,588          .38            23
                W&I population of cases                 85,706          .62            37
                                                       137,294         100%            60
        B. We selected a judgmental sample of 242 cases in one Program site to determine
           whether Program employees adhered to guidelines for processing and closing default
           cases. We used judgmental sampling because we could not define the population and
           did not plan to project our results.
        C. We selected a judgmental sample of 143 cases in one Program site using the Treasury
           Inspector General for Tax Administration Data Center Warehouse Individual Return
           Transaction File and Audit Information Management System to determine whether
           Program employees adhered to guidelines for processing and closing default cases
           that were reopened to consider new information provided by the taxpayer. We used
           judgmental sampling because we could not define the population and did not plan to
           project our results.
III.    Monitored whether the SB/SE Division toll-free call routing system was on target for the
        July 2010 rollout.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: IRS guidelines for timely and effectively
routing, handling and closing Program cases. We evaluated these controls through discussions
with Program management and employees, and by selecting and reviewing closed agreed and
default Program cases.




2
  We randomly selected 27 cases; however, we removed 3 cases from our sample because 1 case was a duplicate and
the remaining 2 did not meet the criteria for the closed cases reviewed.
3
  We randomly selected 15 default cases; however, in 1 case, there was no taxpayer correspondence so the case was
eliminated from the sample.
                                                                                                        Page 14
                          Progress Has Been Made to Reengineer
                   the Examination Program, but Additional Improvements
                          Are Needed to Reduce Taxpayer Burden



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Jones, Director
Deborah Smallwood, Audit Manager
Sylvia Sloan-Copeland, Lead Auditor
Cindy Harris, Senior Auditor
Lynn Ross, Senior Auditor
Chanda Stratton, Auditor
Michele Strong, Auditor




                                                                                      Page 15
                          Progress Has Been Made to Reengineer
                   the Examination Program, but Additional Improvements
                          Are Needed to Reduce Taxpayer Burden



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Reporting Compliance, Small Business/Self-Employed Division
SE:S:CCS:CRC
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                 Page 16
                                Progress Has Been Made to Reengineer
                         the Examination Program, but Additional Improvements
                                Are Needed to Reduce Taxpayer Burden



                                                                                                 Appendix IV

                                      Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Taxpayer Rights and Entitlements – Potential; taxpayers represented by 108,092 agreed1
    closed cases and 101,7872 closed default cases that contained an error because Program
    employees did not adhere to Program guidelines (see pages 4 and 6).

Methodology Used to Measure the Reported Benefit:
Closed Agreed Cases
We selected a statistical sample of 62 W&I Division and SB/SE Division closed agreed cases
from a population of 251,215 for the period April through December 2009. Our results showed
28 (48 percent) contained errors where employees did not follow guidelines while completing
the Program examination.
    •    The W&I Division had 24 of 39 closed agreed cases with errors and the SB/SE Division
         had 4 of 23, totaling 28 of 62.
    •    To determine the combined error rate for both Divisions, we weighed the error rate for
         each Division by the population for both Divisions. Specifically,
         o Agreed W&I Division population + agreed SB/SE Division population = agreed total
           population: (156,284 + 68,5233 = 224,807).
         o Agreed W&I Division population percent: 69.5 percent (156,284/224,807).


1
  We used a 90 percent confidence interval and a precision of ±6.25 percent to calculate a sample size to select cases
we reviewed to identify error rates where employees did not always follow procedures when closing cases. We used
the results of our analysis to project across the population of closed agreed cases. See Appendix VII for a glossary
of terms.
2
  We used a 90 percent confidence interval and a precision of ±8.5 percent to calculate a sample size to select cases
we reviewed to identify error rates where employees did not always follow procedures when closing cases. We used
the results of our analysis to project across the population of closed default cases.
3
  We reduced our initial population by 26,408 because we did not receive cases for the Philadelphia Compliance
Site. Because we did not examine any cases from this site, we did not include its population in our projection.
                                                                                                            Page 17
                                Progress Has Been Made to Reengineer
                         the Examination Program, but Additional Improvements
                                Are Needed to Reduce Taxpayer Burden



        o Agreed SB/SE Division population percent: 30.5 percent (68,523/224,807).
        o Error rate for the W&I Division is 61.5 percent and the SB/SE Division is
          17.4 percent.
        o Error rate for both Divisions is 0.695 x 0.615 + 0.305 x 0.174 = 0.4278 + 0.0530 =
          0.4808 or 48 percent.
    •   Projected number of Program cases with an error that represented taxpayers (0.4808 x
        224,807) = 108,092.4
Closed Default Cases
We selected a statistical sample of 60 closed default cases from a population of 137,294 for the
period April through December 2009 for the W&I and SB/SE Divisions to determine if
employees followed Program guidelines. Results showed 47 (83 percent) contained errors that
indicate Program employees continue to not always follow procedures when closing cases.
    •   The W&I Division had all 37 closed default cases with errors and the SB/SE Division
        had 10 of 23, totaling 47 of 60.
    •   To determine the combined error rate for both Divisions, we weighed the error rate for
        each Division by the population for both Divisions. Specifically,
        o Default W&I Division population + default SB/SE Division population = the default
          total population: (85,706 + 37,0185 = 122,724).
        o Default W&I Division population percent: 69.8 percent (85,706/122,724).
        o Default SB/SE Division population percent: 30.2 percent (37,018/122,724).
        o Error rate for the W&I Division is 100 percent and the SB/SE Division is
          43.5 percent.
        o Error rate for both Divisions is 0.698 x 1.00 + 0.302 x 0.435 = 0.6980 + 0.1314 =
          0.8294 or 83 percent.
    •   Projected number of Program cases with an error that represented taxpayers (.8294 x
        122,724) = 101,787.




4
 The calculated number of affected cases will not equal due to rounding.
5
 We reduced our initial population by 14,570 because we did not receive cases for the Philadelphia Compliance
Site. Because we did not examine any cases from this site, we did not include its population in our projection.
                                                                                                          Page 18
                              Progress Has Been Made to Reengineer
                       the Examination Program, but Additional Improvements
                              Are Needed to Reduce Taxpayer Burden



                                                                                    Appendix V

    Taxpayer Feedback From the Fiscal Year 2010
  Customer Satisfaction Survey on Their Experience
           With the Examination Process

“I had to use the Taxpayer Advocate due to no response to phone calls or fax requests; the
examiner had terrible professional contact.”
“The frustrating part is that I made sixteen phone calls and left messages, and not one call was
returned.”
“I left several messages with my case worker, and she would never get back to me.”
“It took seven months to resolve this issue.”
“The length of time during the audit can cause anxiety!”
“I feel like I have been singled out, picked on, and harassed by the IRS.”
“I am still waiting for my refund. I feel this is very unfair.”
“I spent hours on the phone with the IRS going from one person to the next trying to get
guidance as to what to do.”
“It takes a lot of time to get all of the paperwork together. How do people with full-time jobs
handle this?”
“The wait time to actually get my case assigned and my information in front of an agent was way
too long. It took approximately six to eight months.”
“Find a way to have these matters resolved quicker than one year.”
“I sent in a copy of my divorce agreement with my taxes but it was never looked at.”
“When a person sends court papers for proof in a case for the audit, they should consider them
and not let them be ignored.”
“Original notice of adjustment to my return gave no explanation as to why changes were made.”
“I think the IRS needs to give a more clear explanation of their findings during the audit.”




                                                                                               Page 19
        Progress Has Been Made to Reengineer
 the Examination Program, but Additional Improvements
        Are Needed to Reduce Taxpayer Burden



                                             Appendix VI

Letter 3219 Notice of Deficiency




                                                    Page 20
       Progress Has Been Made to Reengineer
the Examination Program, but Additional Improvements
       Are Needed to Reduce Taxpayer Burden




                                                   Page 21
                            Progress Has Been Made to Reengineer
                     the Examination Program, but Additional Improvements
                            Are Needed to Reduce Taxpayer Burden



                                                                                Appendix VII

                                Glossary of Terms

Abating – The act of reducing or eliminating unpaid taxes.
Agreed – Cases are considered agreed when the taxpayer signs the proposed tax assessment
report agreeing to changes made.
Assessment – An assessment is the statutorily required recording of the tax liability. This
generally happens when the IRS determines the taxpayer owed more taxes than reported on the
tax return.
Audit Information Management System – An IRS computer system that provides inventory
and activity control of active examinations.
Audit Reconsideration – The process the IRS uses to reevaluate the results of a prior
examination where additional tax was assessed and remains unpaid or a tax credit was reversed.
If the taxpayer disagrees with the original determination, he or she must provide information that
was not previously considered during the original examination.
Automated History Sheet – An electronic workpaper in IRS computer systems which captures
the actions taken on a case (e.g., contacts with taxpayers and research conducted).
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Correspondence Examination Automation Support System – The IRS suite of web-based
applications developed to enhance the site examination process. The system enables case
assignment and transfer between examination groups and batch groups, facilitates a universal
view of the campus examination case inventory, and allows the display of the client-generated
tax reports and letters associated with the examination case.
Defaulted – Cases are defaulted when the taxpayer fails to sign the proposed tax assessment
report, contacts the IRS to appeal the tax assessment, or petitions the Tax Court.
Individual Return Transaction File – One of the IRS data files stored at the Data Center
Warehouse. The Return Transaction File contains all edited, transcribed, and error-corrected
data from the U.S. Individual Income Tax Return (Form 1040) series and related forms for the
current processing year and 2 prior years.




                                                                                          Page 22
                            Progress Has Been Made to Reengineer
                     the Examination Program, but Additional Improvements
                            Are Needed to Reduce Taxpayer Burden



Integrated Data Retrieval System – An IRS computer system with the capability to
instantaneously retrieve or update stored taxpayer information. The system tracks taxpayer
status and allows for post transaction updates back to the Master File.
IRS Received Date – The date the IRS stamps on correspondence designating the date it was
received at any IRS office or campus.
Lean Six Sigma – Lean is a time and value-based process improvement philosophy designed to
eliminate waste and nonvalue-added activities. Six Sigma is a business process improvement
method that uses data and facts to produce bottom-line measurable results through reduction in
process variation.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Program Received Date – The date the Discretionary Examination and Correspondence
Examination Program receives and date stamps mail for processing.
Treasury Inspector General for Tax Administration Data Center Warehouse – A
centralized storage and administration of files that provides data and data access services of IRS
data.




                                                                                           Page 23
             Progress Has Been Made to Reengineer
      the Examination Program, but Additional Improvements
             Are Needed to Reduce Taxpayer Burden



                                                 Appendix VIII

Management’s Response to the Draft Report




                                                         Page 24
       Progress Has Been Made to Reengineer
the Examination Program, but Additional Improvements
       Are Needed to Reduce Taxpayer Burden




                                                   Page 25
       Progress Has Been Made to Reengineer
the Examination Program, but Additional Improvements
       Are Needed to Reduce Taxpayer Burden




                                                   Page 26
       Progress Has Been Made to Reengineer
the Examination Program, but Additional Improvements
       Are Needed to Reduce Taxpayer Burden




                                                   Page 27
